CERTIFICATE OF SERVICE
NO. TBD
Brandan A. Mack
Petitioner
v.
State of Florida
Respondent
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
BRANDAN A. MACK PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Ashley Moody
Office of the State Attorney
First Judicial Circuit, Walton County
The Florida Capitol
Tallahassee, FL 32399-1050
(850) 414-3300
ashley.moody@myfloridalegal.com
Counsel for State of Florida

Lucas DeDeus

September 14, 2020
SCP Tracking: Newman-908 Thomasville Road-Cover White

